No. ______

In the
Supreme Court of the United States
ELIN ROBINSON MEJIA ROMERO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I served the Petition for Writ of Certiorari, Motion to
Proceed In Forma Pauperis, Affidavit of Timely Filing by Mail, and this Certificate
on all parties to be served.
In accordance with Rule 29.3 of the Supreme Court Rules, said service has
been made by sending one copy by first class mail, postage pre-paid to:
Leah Foley, AUSA
Lauren Graber, AUSA
Office of the United States Attorney
One Courthouse Way
Boston, MA 02210

Jeffrey B. Wall
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

/s/ Zainabu Rumala

Zainabu Rumala
Assistant Federal Public Defender
Federal Public Defender Office
51 Sleeper Street, 5th Floor
Boston, MA 02210
(617) 223-8061
DATED: January 8, 2021

